Manifesting Requirements on Hazardous Waste
Generators
                                       TABLE OF CONTENTS

EXECUTIVE SUMMARY

CHAPTERS

1. MORE CONTROLS NEEDED TO ASSURE GENERATORS ARE PROPERLY MANAGING
HAZARDOUS WASTE

Background

Manifested Wastes Present a Significant Threat to Human Health and the Environment

High Cost of Managing Hazardous Waste Provides Incentive to Bypass Controls

Proactive Efforts are Needed for Better Hazardous Waste Management

Recommendation

2. HAZARDOUS WASTE TRACKING AND NOTIFICATION NEED IMPROVEMENTS

Breaks in the Manifest System Impede Tracking of Hazardous Waste

Notification Process Needs Improvement

Recommendations

Agency Comments and OIG Evaluation

3. EPA COULD IMPROVE ITS USE OF INSPECTION RESOURCES

Targeting Inspections Could Better Utilize Limited Resources

Inspection Reports Need Improvement in Some Cases

Better Documentation of Process Knowledge is Needed

Recommendations

Agency Comments and OIG Evaluation

APPENDIX I - Background

APPENDIX II - Scope and Methodology

APPENDIX III - Tables 1, 2, and 3
APPENDIX IV - Glossary of Acronyms

APPENDIX V - Agency Response to Draft Report (Not Available)

APPENDIX VI - Distribution List

                                                 CHAPTER 1

     MORE CONTROLS NEEDED TO ASSURE GENERATORS ARE PROPERLY MANAGING
                            HAZARDOUS WASTE

The last fifteen years have seen substantial improvements in the management of hazardous waste in this
country. However, in spite of progress made, the potential risk to human health and the environment from
improper management of hazardous waste still exists. Subtitle C of the Resource Conservation and Recovery
Act (RCRA) established a framework for the management of hazardous waste from "cradle to grave," that is,
from generation to disposal. RCRA required EPA to develop regulations to translate this framework into a
program. EPA developed the manifest system under a mandate to assure hazardous waste shipped off site by
generators arrives at RCRA permitted treatment, storage, and disposal facilities. However, we found that the
high cost of proper hazardous waste management provides strong economic incentives for generators to bypass
permitted treatment and disposal. In addition, federal and state authorities have limited resources for monitoring
generators' hazardous waste management and enforcing regulations. As a consequence, the level of
effectiveness of the hazardous waste manifest system is unknown.

The purpose of our audit was to determine whether the manifest system established by EPA provides sufficient
controls to assure that hazardous wastes arrive at permitted TSDFs. We evaluated the manifest system as a set
of controls over hazardous waste. We also evaluated controls over the manifest system. We found that
improvements could be made to the manifest system and to controls over the manifest system. In developing
recommendations to improve controls, we considered available resources and the potential additional burden on
industry.

We conducted our review between September 6, 1994, and July 21, 1995. We reviewed appropriate regulations
and met with officials concerning the manifest system in EPA Headquarters; Regions 3, 4, 6, and 7; and Texas
and Louisiana. Since manifests are reviewed during facility inspections, we reviewed inspection reports in the
above-mentioned regions and states. We interviewed officials at Headquarters and in the regions and states we
visited regarding the hazardous waste manifest system and the inspection process. (See Appendix II for Scope
and Methodology)

BACKGROUND

Growth in this country expanded considerably after the end of World War II when there was a surge in
industrial production of consumer goods. Along with the benefits created by industrial production, however,
there were drawbacks. Increasing amounts of waste were being produced, both hazardous and non-hazardous
creating serious consequences for human health and the environment. According to Agency reports, hazardous
waste production in this country grew from roughly 550,000 tons per year at the end of World War II to an
annual production in fiscal 1991 of 306 million tons. As a result of growing public concern, RCRA was enacted
in 1976 and has been amended several times since then to address the ongoing challenge of effectively
managing waste. Subtitle C of RCRA addresses the safe management of hazardous waste.

The Subtitle C program has been largely delegated to the states, with oversight by the federal government. The
states are recognized as being in a better position to administer the programs and respond to specific state and
local needs most effectively. There are currently four states that are not authorized for the Subtitle C base
program -- Alaska, Hawaii, Iowa, and Wyoming. In these states, the base program is administered by the
appropriate EPA region.

The manifest system is one of the components of the Subtitle C base program. The manifest is a control and
transport document that accompanies hazardous waste from its generation site to its treatment, storage, and
disposal site. Hazardous waste is a subset of hazardous materials which are regulated by the Department of
Transportation (DOT). However, hazardous wastes are subject to additional requirements under RCRA. One
requirement is that hazardous waste shipments must be accompanied by a manifest. The generator initiates the
manifest which accompanies the hazardous waste throughout the process. When the waste is delivered to the
facility designated on the manifest, the original manifest is returned to the generator with signatures of all the
entities that have handled the waste. There is no federal requirement for manifests to be sent to EPA or the
states for routine shipments. However, some states do require that a copy of the manifest be sent to the state for
all shipments.

Federal regulations require that EPA or the authorized state receive notification if there is a significant
discrepancy between the quantity or type of waste the generator identifies on the manifest and the quantity or
type received by the TSDF. If the generator does not receive a copy of the manifest within 45 days of the date
the waste was accepted by the initial transporter, the generator is required to file an exception report with the
EPA Regional Administrator of the region in which the generator is located. The exception report must include
a legible copy of the manifest and a cover letter explaining the efforts taken to locate the hazardous waste and
the results of those efforts. Additionally, if a TSDF receives hazardous waste without a manifest, this condition
must be reported to EPA or the authorized state. The only time that EPA is included in the manifest process on a
regular basis is when hazardous wastes are transported to foreign countries for treatment, storage, or disposal.
(See Appendix I for Background)

MANIFESTED WASTES PRESENT A SIGNIFICANT THREAT TO HUMAN HEALTH AND THE
ENVIRONMENT

Although waste shipped off site under the manifest system represents a small percentage of the nation's
hazardous waste, it is a substantial volume. According to the 1991 Biennial Report, facilities reported shipping
12.7 million tons of hazardous waste off site in that year. This number does not capture the amount of waste
shipped off site by small quantity generators (SQG) who are not required to submit data for the Biennial Report.
Of 306 million tons of hazardous waste reported as generated in 1991, approximately 93 percent was managed
as wastewater. Wastewaters tend to be managed on site while non-wastewaters tend to be manifested and
shipped off site. An EPA official told us that if non-wastewaters are mismanaged, it is an important concern
because they are often solid, highly concentrated wastes. He explained that these wastes might be spent solvents
which are 99 percent organic chemical or spent catalyst impregnated with heavy metals and oil.

HIGH COST OF MANAGING HAZARDOUS WASTE PROVIDES INCENTIVE TO BYPASS CONTROLS

Managing hazardous waste so that it can be safely disposed of is expensive. Based on recent EPA estimates, the
costs of regulated hazardous waste treatment and disposal are up to thirty-one times higher per ton than
regulated disposal of non-hazardous waste. Cost per ton depends on treatment type and in some cases the
amount of waste being treated. The high cost of managing hazardous waste has both positive and negative
consequences. On one hand, being required to pay the high cost of managing hazardous waste is an incentive
for generators to recycle and reduce production of hazardous waste. For example, a Dow Chemical plant in
California found a way to reduce use of a solvent by 80 percent, thereby reducing the amount of hazardous
waste solvent produced and saving up to $8 million a year. EPA recognizes the importance of minimizing the
production of hazardous waste. The EPA Administrator has made a commitment to work with industry to
achieve further progress in the area of waste minimization. On the other hand, the high cost of managing
hazardous waste creates a strong incentive for generators to bypass proper treatment and disposal.
Many Well-Known Companies Violate RCRA Regulations

An EPA official stated that it is difficult to determine whether generators are managing all hazardous waste
properly. In any case and in spite of limited resources for inspections and enforcement, there have been
successful enforcement actions brought against RCRA violators. A few examples demonstrate the existence of
serious mismanagement of hazardous waste by generators and that large as well as small businesses can violate
regulations. These cases all involved wastes which were illegally disposed of and should have been manifested.
Large corporations can be expected to have resources and expertise to understand and comply with regulations.
Therefore, it is surprising when corporations such as Dexter Corporation, a Fortune 500 company; United States
Sugar Corporation, one of the largest sugar manufacturers in the country; OEA, which manufactures 60 percent
of the world supply of explosive air bag initiators; United Technologies Corporation and International Paper
Company plead guilty to criminal hazardous waste violations.

Dexter pleaded guilty to eight felony violations and agreed to pay $13 million in criminal and civil fines for
Clean Water Act and RCRA violations. Among other violations, Dexter was charged with illegally disposing of
carbon disulfide, an acute hazardous waste, by dumping it on the ground and discharging it into the Connecticut
River. In another case, United States Sugar was fined $3,750,000 for RCRA and RCRA-related criminal
violations. The company illegally dumped a large volume of highly toxic lead subacetate on site and at the
county landfill. Thousands of gallons of hazardous waste solvents were poured on the ground and into drainage
ditches and canals by United States Sugar employees. Other spent solvents were mixed with oil and illegally
transported without a manifest to an improper facility. OEA pleaded guilty to illegal transportation, storage,
treatment and disposal of hazardous wastes. The company engaged in the practice of illegal on-site detonation
of ignitable solvents and reactive explosives used in its manufacturing process. In three separate incidents, four
employees were injured, one with serious burns. United Technologies pleaded guilty to six felony violations
and agreed to pay $3 million for illegally disposing of hazardous waste at the Sikorsky Aircraft Division in
Stratford, Connecticut. International Paper falsely stated that it did not generate hazardous waste at its
Androscoggin Mill in Maine. The company pleaded guilty to storing and treating hazardous waste without a
permit and making false statements to the government. It was fined $2.2 million.

Small Quantity Generators (SQG) More Likely to Circumvent Controls

Two RAND Corporation reports state that SQGs are more likely to violate hazardous waste regulations than
large quantity generators (LQG). It is well known that the regulatory complexities contribute to the difficulties
that SQGs experience in complying with RCRA. However, the ease with which SQGs can dispose of small
quantities of hazardous wastes and the difficulties in detection may contribute just as much to non-compliance.
Small amounts of hazardous waste are fairly easily concealed in trash containers and sent to municipal landfills
or dumped in storm drains.

According to an article in the Washington Post on June 13, 1995, the president of East Chem Corporation and
an employee pleaded guilty to dumping 25 buckets of hazardous waste from furniture refinishing and paint
processing products. These were placed in a trash container behind an apartment building. The employee who
put the buckets in the trash container neglected to put them in plastic bags as he had been instructed by the
company president. As a result, the buckets were discovered by maintenance workers, and agents of the Federal
Bureau of Investigation and EPA were able to trace them to the company. Another similar case in Florida
resulted in tragic consequences. Two nine-year-old boys were overcome by fumes and died when they played in
a trash dumpster containing a hazardous waste, toluene. Investigations revealed that the William Recht
Company had routinely and illegally disposed of spent toluene in the dumpster. The company was fined $1.5
million, and the company plant manager and shop foreman were each sentenced to 27 months in prison.

Level Playing Field Needed for Firms in Compliance
Companies must spend large sums of money to properly manage hazardous waste and are at an economic
disadvantage if their competitors do not follow suit. The President of the National Association of Solvent
Recyclers (NASR) made this point in a letter to the EPA Administrator, dated February 9, 1989. He stated that
the costs of compliance with RCRA are substantial and, "NASR members and other solvent recyclers who in
good faith operate in full compliance with the RCRA storage requirements will be at a severe competitive
disadvantage with respect to operators who evade these requirements." We concur with this position. Without a
level playing field, companies that manage hazardous waste correctly could be placed in a competitive
disadvantage by companies that violate the regulations.

The need for a "level playing field," to protect companies who properly manage hazardous waste from unfair
economic competition from companies who save money by not complying, is recognized in two recent policy
statements. In a March 16, 1995, policy document, "Reinventing Environmental Regulation," the
Administration expressed its commitment to preserving a level playing field for those companies which are in
compliance with environmental regulations. The document also called for aggressive enforcement that targeted
significant non-compliance issues. The "National Environmental Performance Partnership System," an
agreement worked out between EPA and the states, was issued on May 17, 1995. The agreement provides states
greater flexibility in achieving environmental goals "while respecting the need for a level playing field across
the country."

PROACTIVE EFFORTS ARE NEEDED FOR BETTER HAZARDOUS WASTE MANAGEMENT

In 1990, EPA completed an evaluation of the RCRA program's progress. The results were published in The
Nation's Hazardous Waste Management Program at a Crossroads, The RCRA Implementation Study (RIS). The
RIS found that the RCRA Subtitle C program had grown very large in a short time, and large numbers of
complex regulations had been developed as a result of Congressional deadlines and public pressure. One of the
many report recommendations was to substantially increase the emphasis on generators and non-notifiers. The
report also stated, "the primary incentives to comply with RCRA are fear of criminal liability, fear of Superfund
liability, and fear of damage to a company's reputation." It called for EPA to be proactive rather than reactive in
the future in improving the plan for managing hazardous waste. We found that since the study was published,
EPA has taken some proactive measures, but more needs to be done. We are particularly concerned that the
state of the program is such that the level of compliance with the manifest system is unknown.

The Agency adopted a proactive approach in several areas of the RCRA program and continues to develop new
methods to improve the program. We found a high level of commitment to solving complex problems and
devising innovative methods to maximize the use of limited resources. One important step was the commitment
to waste minimization. Another important step was the development of interim policy on voluntary
environmental self-policing and self-disclosure. The purpose of the policy is to provide incentives for
companies to arrange for environmental audits (third-party audits) of their facilities. Incentives would be in the
form of reduced penalties for companies that voluntarily identify, correct and disclose violations. However,
reduced penalty incentives would not apply to criminal violations, imminent and substantial endangerment, and
repeat violations. We strongly support this effort. Since there are not enough resources for EPA and state
inspections of more than a small percentage of hazardous waste facilities, third-party audits could supplement
facility compliance monitoring and help improve hazardous waste management.

The Agency has also taken an innovative approach in data collection and recording. The Agency initiated pilot
projects to introduce electronic reporting of compliance data for EPA and state hazardous waste management
programs. The approach known as "electronic data interchange" (EDI) permits electronic exchange of data
between vastly different hardware/software systems. EDI would make possible the electronic exchange of
hazardous waste data between government agencies and their regulated communities. If successful
implementation of EDI nationally could be achieved, it could significantly improve hazardous waste data
gathering and compliance monitoring.
Although these new approaches may help to improve generators' hazardous waste management, more still needs
to be known and done. The General Accounting Office (GAO) has repeatedly reported on problems with
hazardous waste data. Further, both GAO and the RAND Corporation have reported that illegal disposal of
hazardous waste is difficult to detect. Considering the strong economic incentives for noncompliance and the
self-initiation of manifests, we believe the manifest system, without a strong inspection and enforcement
program, does not provide adequate assurance that hazardous waste is properly managed. The system, by itself,
is only as good as the integrity of the generators and incentives to use it. While the manifest system is helping to
control large amounts of hazardous waste, all of the above point to the level of effectiveness of the system being
unknown. EPA places tremendous faith in generators to initiate manifest documents while there are very strong
financial incentives to noncomply. In addition, there are limited resources and tools available to determine the
overall compliance/noncompliance levels.

We found several ways EPA could improve controls over the manifest system. In developing recommendations
to improve controls, we considered available resources and the potential additional burden on industry. Some of
the solutions we identified would require substantial investments and changes to current operations. We are
offering these solutions as suggestions and not as recommendations. The recommendations we are proposing
we believe can all be implemented within current resources and do not impose a significant additional burden
on industry.

Since manifest data are verified by TSDFs, manifests could be a good source of hazardous waste data if all
states had the capability to collect and record them. Collecting manifests would also improve the ability to
monitor hazardous waste management and encourage generator voluntary compliance. As discussed earlier in
this chapter, not all states collect manifests on a routine basis. We realize that a federal requirement that all
states collect manifests is not presently feasible. However, it might be possible to provide encouragement to
those states which are now collecting or planning to collect manifests. For example, the EDI pilot projects are a
positive step in this direction.

The primary federal source of hazardous waste data is the Biennial Reporting System (BRS). LQGs and TSDFs
are required to report biennially on the quantity and types of wastes generated, waste management practices,
and waste minimization efforts. Although there have been improvements made in the last few years to the BRS,
it has some weaknesses. The data are difficult to verify, are not reported annually, and do not include hazardous
waste produced by SQGs. As a result, the amount of waste produced by SQGs is generally unknown.

We found that generator reporting requirements are very limited. Currently LQGs only report on hazardous
wastes produced and not on the processes and inputs to the processes which create wastes. In our opinion,
reports should be required annually from both LQGs and SQGs and should fully disclose the wastes produced
and the processes producing hazardous wastes. These reports would provide better data for hazardous waste
management and waste minimization and could be used to identify facilities for inspection. These data would
help improve the ability of an inspector to tell if waste figures reported by a company are approximately correct
considering the company's processes and production levels.

We believe it is possible to use a discriminate function approach to promote voluntary compliance similar to the
one used by the Internal Revenue Service (IRS) to identify tax returns for audit. The IRS takes a complicated
regulatory system and utilizes a reporting and targeted audit system to actually determine the level of
compliance with the tax laws. For example, IRS was able to determine that current compliance levels are at 80
percent - with lower compliance levels found among certain taxpayer groups. The IRS through its Taxpayer
Compliance Measurement Program, takes a random sample of tax returns and thoroughly audits the sample.
The data are used to target, by risk, noncompliance areas in the population. The approach has allowed IRS to
determine overall levels of compliance or non- compliance with tax laws, thus providing data on how well the
system is working.
EPA presently has no comparable approach. However, parallel thinking could help design and establish an
improved system for promoting and measuring compliance with RCRA by generators. For example, requiring
annual reporting from generators on their hazardous waste processes would provide incentives for improving
hazardous waste management and compliance just as income tax returns promote voluntary compliance with the
tax law. In addition, manifest data could be used in conjunction with annual reporting to verify data, and a
random check of generator reports could provide data to target, by risk, facilities for inspections.

Achieving these standards in reporting is a long run solution. However, we encourage EPA to work toward
better measurement of whether all hazardous wastes are being managed properly. Agency efforts to establish
performance measures under the Government Performance and Results Act (GPRA) should address these
issues. While observing that the present program results in the level of effectiveness of the manifest system
being unknown, we recognize that efforts are underway through the GPRA to provide better measurements on
outcomes. We encourage consideration of the above in establishing and refining performance measures for
RCRA.

RECOMMENDATION

We recommend the Assistant Administrator for the Office of Solid Waste and Emergency Response:

-- Consider the development of measures to determine manifesting effectiveness including mechanisms to
ensure hazardous wastes are being managed properly.

                                                 CHAPTER 2

         HAZARDOUS WASTE TRACKING AND NOTIFICATION NEED IMPROVEMENTS

We found that the manifest system is self-initiated and self-monitored with only limited oversight by federal
and state authorities. We believe the system, as implemented, contains flaws and does not always provide
generators, EPA, or the states with the means to track hazardous waste from generation to its final destination.
As a result, there are opportunities for generators, transporters, and TSDFs to avoid the high costs of
compliance with regulations for hazardous waste shipped off site. In addition to the flaws in the manifest
system, the hazardous waste notification process does not provide sufficient information to identify generators
and track them when they move or go out of business. It also does not provide flexibility for companies which
need identification numbers in case they generate hazardous waste in the future.

BREAKS IN THE MANIFEST SYSTEM IMPEDE TRACKING OF HAZARDOUS WASTE

Under Congressional mandate, EPA developed the manifest system to be part of a comprehensive national
tracking system for hazardous wastes. The manifest system is the control point for generators as they are
ultimately responsible and liable for the safe disposition of the wastes. The system is, for the most part, self-
controlled by the generators. It is also intended to allow EPA or the states, when necessary, to track wastes from
generation to disposal. It should provide generators with information to know and control the ultimate
disposition of their wastes. However, we found several instances where the manifest system can break down as
a tracking device. The tracking system for hazardous waste can be interrupted when: wastes are commingled at
transfer facilities; shipments are rejected by TSDFs; residues are left in hazardous waste containers; or
hazardous residues are shipped out after treatment.

Combined Loads at Transfer Facilities

Our review of various documents and discussions with federal and state officials revealed that transporters may
combine wastes from different generators in order to maximize their loads. The EPA 1993 RCRA Inspection
Training Manual states that, when transporting drums by truck, transporters will often combine shipments from
different generators. The Director of the Office of Solid Waste stated in a memo dated October 30, 1990, that
wastes are routinely combined at transfer facilities and that often containerized waste is transferred to a tanker
truck. A transfer facility, as defined by EPA, is "any transportation related facility including loading docks,
parking areas, storage areas and other similar areas where shipments of hazardous waste are held during the
normal course of transportation." Under RCRA, hazardous waste transfer facilities are not required to have a
permit or identification number as long as the waste is not stored at the facility for longer than ten days.

Federal regulations allow partially full containers of hazardous waste to be opened and commingled or
transferred to a tanker truck as long as the wastes are compatible. If the commingled hazardous wastes have
different DOT shipping descriptions, the transporter must create a new manifest since the commingled waste
will be different from the wastes described on the original manifests. Commingling these wastes requires the
container labels and descriptions on manifests to be changed. If the commingled wastes have the same DOT
shipping description, the transporter can amend one of the manifests to reflect the new volumes. However, the
transporter is not required to do this and can leave all the manifests in their original condition. In addition, the
transporter is not required to inform generators that commingling has occurred or, if a new manifest is created,
cross-reference the new manifest to the original.

The TSDF receiving the commingled waste signs all the manifests involved. The original manifests are returned
to the generators. If the transporter has created a new manifest for commingled wastes, it is returned to the
transporter. However, the original generator does not receive a copy of the new manifest. There is no
requirement for a link to be established between the new and original manifests, in the case of commingled
loads, and the original generators do not have the ability to track the disposition of their hazardous wastes. In
our opinion, generators should be informed of, and give their consent to, any commingling of their wastes.
Since generators have responsibility and liability for their hazardous wastes, they have a right to know, and
need control over, what happens to their wastes.

There are several other risks involved with commingling wastes. Foremost is the risk that wastes which are not
compatible will be accidently mixed causing hazardous fumes, fires, or explosions. Another risk is that
hazardous waste will be spilled in the process of commingling or the containers will not be resealed and labeled
properly. An EPA official explained that when generators sign the manifest, they are certifying the waste is
properly labeled and packaged. If that waste is repackaged, the generator certification is broken. However, the
generator still remains liable. Not regulating transfer facilities also makes it easier for some illegal practices to
occur. For example, ignitable hazardous wastes have been mixed illegally with crude oil or fuel oil to bypass
regulated hazardous waste treatment. A New York State police official told us about a case that involved illegal
commingling. Hazardous waste was illegally commingled with fuel oil in New Jersey, and the mixture was sold
as fuel oil to New York City.

Because of the risks at unregulated transfer facilities, New York State has attempted to regulate them. However,
the Hazardous Materials Transportation Act, as amended by the Hazardous Materials Uniform Safety Act,
provides DOT with authority to preempt state and local regulations concerning transportation regulations that
are not substantively the same as DOT's regulations. As a result, the Chemical Waste Transportation Institute
challenged New York State's regulation of transfer facilities. This matter is currently being considered by DOT.

Any federal regulation of transfer facilities would have to be in conjunction with DOT. However, EPA could
make improvements to manifesting waste at transfer facilities and improve generators' ability to track and
control the disposition of their wastes by requiring transporters to obtain generator consent for commingling
hazardous waste and to cross-reference new manifests created to the original manifests.

Rejected Loads
TSDFs do not always accept shipments of hazardous waste sent by generators. For example, the TSDF might
have a certain British Thermal Units (BTU) requirement in order to treat the waste. If the shipment of waste
does not have the required BTUs, the TSDF might reject the waste shipment. The TSDF can legally reject a
load after it has signed the manifest. The regulations allow the facility to sign for receipt of the waste and then
test the waste at a later time and reject it if necessary. In current practice, if the facility rejects a load after
signing and sending back the original manifest, it prepares a new manifest and can decide where to send the
waste without generator concurrence. There are no requirements that the generator be contacted or the original
manifest be referenced on the new manifest. Thus the generator who is still liable loses track of its wastes.

A negotiated rulemaking committee, convened by EPA for revising manifest regulations, addressed this
problem. The committee reached agreement that the generator should be contacted when the TSDF rejects a
load and provide instructions on where the rejected load should be sent. In addition, if a new manifest is
prepared, because the original manifest had been signed and returned to the generator, it should be cross-
referenced to the original manifest. Sometimes partial loads are rejected. The committee agreed that if a partial
load is rejected, the generator should be contacted for instructions as in the case of rejecting a full load. If a new
manifest is needed for a rejected partial load, the original manifest should be referenced on the new manifest.

There has also been some confusion about the difference between "receipt" and "acceptance" of the waste at the
TSDF. The regulations acknowledge that the operator at the TSDF might have to sign for receipt of the waste
before the waste has been analyzed by the TSDF. However, the manifest form states that the signature of the
facility owner or operator is certifying to "receipt of hazardous materials covered by this manifest except as
noted...." This has been interpreted by some to mean the TSDF is accepting the waste when the manifest is
signed. Waste analysis done later might determine that the waste is not the same as the description on the
manifest. A significant discrepancy report might be necessary and/or the waste might need to be rejected by the
TSDF. Some waste handlers have been under the impression that they are out of compliance if they sign for
receipt of the waste before analyzing and accepting it. On the other hand, transporters would be out of
compliance if they leave shipments of hazardous waste at TSDFs without TSDF signatures on the manifests. An
inspector we discussed this issue with believed that there was no solution and that either the TSDF or the
transporter would have to be out of compliance. The rulemaking committee discussed defining these two terms
but could not reach an agreement on making a recommendation to the Agency. This issue should be clarified by
the Agency for the waste handlers and inspectors to eliminate confusion about procedures TSDFs should follow
to be in compliance when they receive manifested waste.

Hazardous Residues Left in Containers

Hazardous residues are sometimes left in containers after being emptied by the TSDF. Under current
regulations, if only a small amount is left in the container (as specified in 40 CFR 261.7), the container is
considered to be "empty" and is no longer regulated as a hazardous waste. However, in some cases the TSDF
might not be able to remove enough of the waste to render a container "empty." This might happen if a lot of
sludge has settled out of the waste to the bottom of the container or congealed along the sides. This settled
sludge can sometimes represent a significant portion of the load. When the TSDF can not thoroughly clean out
the container, it must be sent to another facility to be cleaned. Current regulations do not clearly define a
manifesting process for this condition.

The rulemaking committee agreed to apply the requirements for partially rejected loads to shipments involving
container residues. If the residue causes the container to be "non-empty" the TSDF must note this on the
original manifest and contact the generator to work out an arrangement for handling the residue. If the TSDF
must prepare a new manifest for shipping the non-empty container to a cleaning facility, there must be a
reference to the original generator in the handling block of the new manifest.

Hazardous Residues After Treatment
A state official brought to our attention the problem with hazardous residues which remain after the waste has
been treated. These hazardous residues which remain after treatment must be sent to another facility for disposal
when the treatment facility is not permitted as a disposal facility. For example, ash remaining after incineration
would be a hazardous waste if it contains certain metals. This ash would need further treatment, to stabilize the
metals, and then disposal. Under current practice, if the treatment facility must send it to another facility for
disposal, the treatment facility creates a new manifest for the ash. Currently, there are no requirements that the
treatment facility reference the original manifest on the new manifest. We believe that cross-referencing
manifests would provide an audit trail and meet the intent of the manifest system to track hazardous waste to its
final destination.

NOTIFICATION PROCESS NEEDS IMPROVEMENT

All hazardous waste generators, transporters and TSDFs must obtain an identification number from EPA and
this number is required on every manifest. An identification number is obtained by submitting a "Notification of
Hazardous Waste Activity" form. The number assigned applies to the location of the generator. Therefore, if the
generator moves to a new location, a new EPA identification number must be obtained.

We were told that generators do not always understand that they need a new identification number when they
change location. Generators tend to assume that the identification number remains with the business. We
reviewed the "Instructions for Filing Notification," developed by EPA and the notification form itself and
determined that these documents do not clearly state that a new EPA identification number must be obtained
when generators move. The information that generators should renotify when they change location is hard to
find in the instructions. It only appears in a note to the line by line instructions for filling out the form. We
believe the instructions on how to file and the notification form should clearly state this requirement.
Furthermore, these documents do not ask generators to notify EPA when they go out of business or otherwise
cease being hazardous waste generators. The result is inaccurate data on generators in the EPA data base which
create inefficiencies in RCRA program management. For example, EPA inspectors were sent to a hazardous
waste facility location which was listed in the data base. However, the facility had moved, and an ice cream
stand was now at that location.

We were also told about the practice of "protective filing" when generators apply for an EPA identification
number before they actually generate hazardous waste. They file for an identification number in case they
generate hazardous waste in the future, and they do not want to be out of compliance when that occurs.
However, in order to obtain an identification number, protective filers must claim they are generating hazardous
waste and, as a result, are listed in the RCRIS data base as hazardous waste generators. If potential generators
were given the option of indicating "protective filing" on the notification form, they would be given a proper
way to obtain EPA identification numbers in advance. Furthermore, they could be excluded from the list of
actual generators. Protective filers should be required to renotify when they begin generating hazardous waste
and given a reasonable grace period to accomplish that process.

As we noted above, the rulemaking committee has made several positive recommendations to address the
breaks in the tracking system. The recommendations will be in a proposed rule issued in the Federal Register.
We endorse the committee's recommendations. However, the committee's recommendations could be broader
and more inclusive of all the breaks in the tracking system. Therefore, our recommendations, while
incorporating some of the committee's recommendations, apply to a broader set of solutions. In addition, we are
recommending that the hazardous waste notification process be improved and "protective filing" be allowed and
recorded in the RCRIS data base.

RECOMMENDATIONS

We recommend the Assistant Administrator for the Office of Solid Waste and Emergency Response:
-- Require that original generators and manifest numbers be referenced on any new manifests created by
transporters or TSDFs for re-shipments of hazardous waste.

-- Ensure that generators maintain control of the disposition of their hazardous wastes by requiring that
transporters obtain generator consent before hazardous waste commingling occurs.

-- Ensure that generators are informed and consulted when partial or full loads of hazardous waste are rejected
by TSDFs or hazardous waste remains in a "non-empty" container.

-- Change the "Notification of Hazardous Waste Activity" form and instructions to clearly state that a new EPA
hazardous waste identification number must be applied for when a generator facility changes location and that
generators should notify EPA when they go out of business or otherwise cease being generators.

-- Change the "Notification of Hazardous Waste Activity" form to allow "protective filing" for potential
generators, and identify generator protective filers in the RCRIS data base.

AGENCY COMMENTS AND OIG EVALUATION

In their response to the OIG draft report, OSWER officials acknowledged that improvements need to be made
to hazardous waste tracking, generator consent, and generator data in RCRIS. However, OSWER officials
expressed concerns about the paperwork burden of the current manifest system and additional paperwork
necessitated by improvements to the system. We concur with the Agency's efforts to reduce paperwork. We are
aware that the President's policy on "Reinventing Environmental Regulation" calls for a 25 percent reduction in
paperwork. In assessing paperwork burdens created by the manifest system, it is necessary to keep in mind that
the President's policy is to preserve essential data and only eliminate low-value requirements. We believe the
manifest system provides essential data and is not a low-value requirement.

We evaluated each of our recommendations with respect to resources needed for implementation and paperwork
burden. In our opinion, improvements in manifest tracking that we recommended would not generate additional
paper. Our recommendation for cross-referencing manifests applies to paperwork which already exists because
new manifests are currently being created for re-shipments of hazardous waste by transporters and TSDFs.
Generator consent can be obtained, without additional paperwork, by inclusion in contracts between generators
and transporters or TSDFs or through telephone calls. We believe our recommendations should stand. If
implemented they will improve manifest tracking and generators' ability to control the disposition of wastes
shipped off site.

The OSWER response to our recommendations to improve generator data stated that the OIG suggestions were
helpful. However, they stated that the RCRA program recently began a Waste Information Needs (WIN)
initiative. OSWER officials expect that the WIN initiative may identify new approaches that will improve the
accuracy of generator data without requiring additional forms and paper reports to be submitted. We believe our
recommendations provide cost-effective solutions and require no unnecessary paperwork. However, we are
willing to consider alternative solutions developed by the WIN initiative. We need to be provided with details
and milestone dates for completion of the WIN initiative objectives. Our recommendations to improve
generator data must stand until we have evaluated and accepted alternatives presented by the Agency.

Our recommendation that notification instructions should clearly state that generators must renotify when they
change location is not an additional requirement on generators because the requirement already exists. This
requirement to renotify is not clearly stated in the instructions. It only appears in a note to the line by line
instructions for filling out the form. We maintain our recommendation that this requirement be clearly stated.
The requirement should appear in the section on how to file. In addition, we continue to believe that it is not
unreasonable to ask generators to notify when they go out of business or cease producing hazardous waste.
Our recommendation that the notification form have a place to indicate "protective filing," for facilities that
want to notify and receive an identification number in case they generate hazardous waste in the future, does not
require extra paperwork because protective filing is optional. Protective filers are currently listed in the data
base as hazardous waste generators. If our recommendation is implemented, data for generator identification
and inspection targeting will be improved. Therefore, we continue in this recommendation.

                                         CHAPTER 3
                     EPA COULD IMPROVE ITS USE OF INSPECTION RESOURCES

EPA has committed to more efficient and effective management of its limited enforcement resources. For
example, EPA has conducted numerous enforcement initiatives designed to detect violators in key segments of
the RCRA regulated community and to achieve maximum deterrence impact from the resulting publicity. EPA's
concern is stated in the RIS: "The RCRA enforcement program will achieve substantial voluntary compliance
only if the regulated community perceives that there is greater risk and cost in violating a requirement than in
complying with it." To enhance voluntary compliance, EPA must have an effective method to detect violations.
Federal and state inspections are essential to the Agency's ability to detect RCRA violations. However, due to
resource limitations, only a small percentage of the regulated universe is inspected in any given year. We have
identified some areas where improvements in effectiveness and efficiency of inspections can be made.

TARGETING INSPECTIONS COULD BETTER UTILIZE LIMITED RESOURCES

We found that inspections were not always targeted in a manner to ensure the most effective use of resources.
Specifically, in our samples, up to 25 percent of inspections were performed on facilities that had previously
been found to be in compliance. We also found that there have been few incentives for EPA regions and states
to focus attention on hazardous waste generators.

Limit Repeat Inspections at Compliant Facilities

We reviewed reports from RCRIS for Compliance Evaluation Inspections (CEI) in fiscal years 1993 and 1994.
We chose random samples from three states and two regions. For two additional states we reviewed the total
populations of CEIs in RCRIS. (See Appendices II and III for sampling information.) We identified facilities
found to be in compliance in fiscal 1994 and compared them to facilities inspected and in compliance in fiscal
1993. We defined a compliant facility as one that had no Class 1 or fewer than three Class 2 violations in fiscal
years 1993 and 1994. A Class 1 violation is in general a failure to ensure delivery of hazardous waste to an
authorized TSDF; or the failure to prevent, detect or clean up a release of a hazardous waste spill. A Class 2
violation is any other violation. For example, omission of the generator identification number on a manifest
would be a Class 2 violation.

We determined that the level of repeat inspections at compliant facilities could be reduced. We recognize that
targeting RCRA inspections is complex due to the federal and Agency requirements. We reviewed the statute,
regulations, and Agency guidance in the annual RCRA Implementation Plans (RIP). The Agency's RIP each
year includes priority themes and activities for the hazardous waste management program including inspection
priorities. We excluded, from our samples, facilities falling under statutory mandates and Agency requirements
to be inspected more often than every two years. Due to the statutory requirement that federal facilities be
inspected annually, federal facilities were excluded from our samples. We also excluded state and local TSDFs
for the same reason. EPA has required any commercial TSDF that receives waste from Superfund sites to have
been inspected within 6 months of receiving such waste. We eliminated, from our samples, those commercial
facilities which receive off-site waste.

For the facilities not excluded, a range from 2 percent to 25 percent of fiscal 1994 CEIs in our samples were
performed at hazardous waste generator facilities that were previously inspected and identified in compliance in
fiscal 1993. In addition, there were no Class 1 violations and fewer than three Class 2 violations found at these
facilities during the fiscal 1994 CEIs. The percentages varied by state or region reviewed. For the state with the
highest rate of repeat inspections, we also reviewed the approved fiscal 1994 workplan for activities to be
conducted pursuant to the Cooperative Agreement between EPA and the state. The workplan includes lists of
some of the facilities to be inspected in fiscal 1994. However, we did not find any indications in the workplan
that would explain the rate of repeat inspections in this state. (See Appendix III, Table 1 for a breakdown of
results.)

EPA allows some flexibility for states and local districts to target inspections, and there may have been valid
reasons at the state or local level for conducting these repeat inspections. However, limited inspection resources
need to be prioritized as effectively as possible according to potential risk. We believe, in general, that
inspecting facilities found to be in compliance during an inspection in the previous year is not necessarily the
best use of resources. This is consistent with the position in "Reinventing Environmental Regulations" which
states that "reducing inspections of facilities with good compliance records will free up resources for the most
serious noncompliance and risk problems."

Under Agency guidance, regions were encouraged to increase monitoring of generators. However, we were told
there were few incentives for EPA regions and states to focus their attention on hazardous waste generators.
Most program activities were focused on the TSDF operations because the accountability measures focused on
the TSDFs. Agency officials told us that new regional enforcement Memorandum of Agreement (MOA)
guidance is to take effect in fiscal 1996. The MOA is expected to aid regions and states in increasing the
emphasis on generators by moving to a risk based approach in targeting inspections. This new MOA is also
expected to reduce the number of repeat inspections that are done at compliant facilities. It appears that this
MOA, if implemented as planned, will provide a means to reach more generator facilities which have never
been inspected. The Agency will need to evaluate this new policy as it is implemented by the regions and states
and assess the rate of repeat inspections to assure that elimination of unnecessary repeat inspections at
compliant facilities occurs.

Needed Information Being Developed for RCRA Inspectors

Inspectors could be aided in conducting inspections by the development of information regarding the expected
waste streams produced by various types of facilities. Agency and state officials agreed that this type of
information would be helpful. One regional inspector said EPA Headquarters is in the process of developing
sector notebooks for different industries. A Headquarters official told us 18 notebooks are being developed.
These notebooks will provide information on the basic process, vital industry statistics, the environmental
regulatory framework, compliance and enforcement profiles, pollutant release data, ongoing compliance
initiatives, and pollution prevention innovations for the industries covered. They also present valuable
background information on specific industries and identify documents and contact points.

The industry notebooks could provide valuable assistance to inspectors in ascertaining what types of hazardous
waste streams are expected at various types of hazardous waste generator facilities, and their development
should be supported and continued. The notebooks could also be a useful supplement to the training given to
inspection personnel, especially to new inspectors.

INSPECTION REPORTS NEED IMPROVEMENT IN SOME CASES

We selected random samples of CEI reports prepared in fiscal 1994 in the regions and states we visited. We
reviewed 252 inspection reports out of a total of 2866 CEIs performed in the locations where we selected our
samples. We reviewed the inspection reports for the adequacy of narratives and checklists. We used the criteria
in the 1993 RCRA Inspection Manual to determine the adequacy of inspection report narratives and checklists.
The manual provides basic information for a thorough review of the manifest system. The manual states:
"Inspection reports must be well-written and should document all key facts because they might become the
focal point for an enforcement action." The guidance provides the elements that need to be included in an
inspection report narrative.

-- An explanation of the overall nature of a facility's activities;

-- A discussion of the manufacturing and waste management operations at the facility;

-- A description of the generation and handling of hazardous wastes;

-- A description of the apparent violations, and a discussion of the documentary evidence supporting a
determination that a facility has a violation.

We compared the narrative portion of the reports reviewed with the above criteria to assess the quality of the
narrative. The manual also provides an example of the type of checklist to be used during an inspection. We
reviewed the report checklists to determine if they contained the elements found in the example.

We found that, overall, a weighted average of 33 percent of the inspection reports from the samples we
reviewed had inadequate narratives and 8 percent had no narrative. It is possible in some cases that the
narratives had been prepared but were missing from the file. Overall, a weighted average of 29 percent of
inspection reports from the samples we reviewed had inadequate checklists and nine percent had no checklists.
We could not determine whether the checklists had been prepared but were missing from the files. The manual,
in general, recommends the use of checklists, however, checklists are optional. Their use depends upon regional
and state policies. We believe that there should be even greater detail in the narrative if there is no checklist
submitted with a report. We do not intend to project our results on the quality of inspection reports to the
national universe of inspection reports. However, we believe the results are an indication that the quality of
inspection reports in general can be improved. (For a breakdown of results, see Appendix III, Tables 2 and 3.)

Proper documentation in the inspection report is crucial to the enforcement system, as the government's case in
a formal hearing or criminal prosecution often hinges on evidence that inspectors gather. We were told by a
state official that the high turnover rate of inspectors is another reason that inspection reports must be well
written for enforcement actions. In addition, it is helpful if the narrative contains documentation of dates when
hazardous waste accumulation began. This documentation would give a subsequent inspector a starting point to
determine whether or not wastes were stored longer than regulations allowed and shipment off-site and
manifesting occurred within the time frames required. Both federal and state officials concurred with the need
to have well written and complete inspection report narratives. We found that in Iowa and Louisiana, where
officials had established a successful report quality review process, there was substantial improvement in the
quality of inspection reports. All regions should sample and evaluate inspection reports on an annual basis for
quality assurance/quality control. Those states which produce good quality reports could be given recognition
and other states could be encouraged to improve report quality.

The importance of a good narrative in the reports is emphasized in the inspector training courses and time is
spent on report writing. An EPA official stressed the importance of the RCRA regulation and inspector skills
training in the RCRA Inspector's Institute and the Advanced RCRA Inspector's Institute. However, we were told
by a regional official that some states can not afford to send all their inspectors to EPA training. The National
Enforcement Training Institute is developing software to be used in training inspectors for multi-media
inspections. This software will also be useful in RCRA inspections. The software will be free to regional, state
and local personnel and should help states maintain a desired level of training for inspectors at a lower cost.

BETTER DOCUMENTATION OF PROCESS KNOWLEDGE IS NEEDED

There are two methods a generator may use to determine if the waste produced is hazardous. The first is by
actually testing the waste stream, and the second is by applying generator knowledge of the facility's process to
identify wastes as hazardous. The regulations also require that the generator document the method used to make
the hazardous waste determination and keep this documentation on file.

The documentation requirement is apparently not regularly enforced. We talked to inspectors who were
unfamiliar with the requirement. In addition, the inspection reports we reviewed, which indicated which method
was used, often did not indicate whether the process was documented. EPA officials we interviewed agreed that
the generator should document the process and this documentation should be reflected in the inspection report.

However, one Agency official cautioned that this requirement would be difficult to implement because of the
diversity among the different generator processes and the lack of uniformity in their records. Some companies
will keep meticulous records of their knowledge of process, while others use the Material Safety Data Sheets
(MSDS), informational sheets required by the Occupational Safety and Health Administration. The MSDS
identifies the components of a chemical compound and the various health and safety issues that are involved. It
does not provide the concentration of the various constituents that may occur in the waste stream as a result of
the manufacturing process. Under the current guidance, the MSDS has been accepted as adequate
documentation.

Furthermore, we were told that generators sometimes identify a waste stream as not hazardous using process
knowledge when, in fact, it is hazardous. This results in improper handling of hazardous waste. A Texas official
told us that Texas had developed a regulation for documentation of process knowledge. The regulation specifies
the type of documentation hazardous waste generators must develop, and have on file, if they do not test their
waste but use process knowledge to characterize the waste they generate. If the generator makes a determination
that a waste produced by the facility is not a hazardous or Texas Class 1 waste, the generator must document a
full description of the facility's process. This description must include a list of constituents that enter the
process.

We see considerable merit in this approach and believe EPA should consider applying a similar standard for
generators documenting process knowledge. The requirement to test waste to determine if it is hazardous
provides a strong control. However, as an alternative, generators are allowed to use process knowledge which is
a much weaker control when generators are not required to fully document their processes and characterize their
waste streams. It seems logical that most, if not all, companies would have a fairly accurate awareness of their
processes. Thus, documenting a description of a facility's process and a characterization of the waste produced
would not be a significant additional burden. A complete and accurate description of the process and resultant
waste stream would provide valuable information and insight for inspectors.

RECOMMENDATIONS

We recommend the Assistant Administrator for the Office of Solid Waste and Emergency Response:

-- Develop a standard requiring generators to document a description of their facility processes when using
process knowledge for waste determination.

We recommend the Assistant Administrator for the Office of Enforcement and Compliance Assurance issue
guidance that regions:

-- Assess the rate of repeat inspections at compliant facilities each year to ensure that inspection resources are
being used effectively in accordance with risk based priorities.

-- Sample and evaluate inspection reports on an annual basis for quality assurance/quality control, using the
RCRA Inspection Manual as a standard, and discuss with the states any areas needing improvement.

AGENCY COMMENTS AND OIG EVALUATION
OSWER officials did not disagree with our recommendation that generators document a description of their
facility processes when using process knowledge for waste determination. However, they were concerned about
the necessity for more specific guidance. We believe this recommendation should be implemented because it
would provide valuable information for inspectors to evaluate waste determinations more efficiently and
effectively. In addition, we believe this recommendation does not add a significant additional burden on
generators since an owner or operator must already understand the facility processes.

OECA officials stated that we failed to control other parameters which might explain our finding that, in fiscal
1994, inspections were conducted on facilities that were found in compliance in fiscal 1994 and had also been
inspected and found in compliance in fiscal 1993. We did control by eliminating federal, state, and local TSDFs
from our samples and commercial facilities receiving Superfund waste. We also acknowledged in our report
that there may be valid reasons for inspecting facilities which were found in compliance in the previous year.
Our position is that given limited resources for inspections, it might be a better use of resources to inspect
facilities which have never had an inspection. Our results show there is a need to monitor the rate of repeat
inspections, and we recommended a method for the regions to do this which does not require significant
additional resources.

OECA officials asked us to reflect that most, if not all, states and regions have a quality review process in place
to review inspection reports. Two of the four regions we visited did not receive most inspection reports and did
not perform regular QA/QC for report quality. We believe our results demonstrate that the QA/QC process
needs to be improved. Our recommendation provides a cost-effective method for the regions to review
inspection reports.

                                                 BACKGROUND

When the amount of waste produced in this country was small, its impact on the environment was relatively
minor. However, in the twentieth century, as industrial production and the amount of hazardous waste
increased, much of the waste produced continued to be released into the environment posing a serious threat to
ecological systems and public health. There are many examples of environmental harm caused from these
practices. One well known headline story, from the late 1970s, occurred at Love Canal, New York, where a
chemical company had disposed of about 20,000 tons of waste. Residents discovered waste chemicals seeping
into their basements and surfacing in their back yards. The residents suffered from an increased rate of
spontaneous abortions and decreased birth weight of babies. There was evidence of increased cancer levels and
birth defects as well. Several hundred people had to be evacuated. In other cases, people suffered adverse health
effects when hazardous waste contaminated drinking water wells. Major public concern over these and other
serious problems led to statutes and regulations to clean up hazardous waste released to the environment and to
prevent further releases.

In 1965, the Solid Waste Disposal Act was enacted for the primary purpose of improving solid waste disposal
methods. It was amended in 1970 by the Resource Recovery Act, and again in 1976 by RCRA. RCRA was
enacted to address the problem of how to safely dispose of the huge volumes of municipal and industrial solid
waste generated nationwide. The statute and its amendments required EPA to develop and promulgate criteria
for listing specific wastes as hazardous and for identifying the characteristics of hazardous waste. EPA defined
those characteristics that make a waste hazardous as:

-- toxicity: Wastes that are likely to leach hazardous concentrations of particular toxic constituents into the
ground water as a result of improper management;

-- reactivity: Wastes that are unstable and can pose a problem at any stage of the waste management cycle;

-- corrosivity: Wastes that have a pH less than 2 or greater than 12.5;
-- ignitability: Wastes that have a flash point of less than 140oF or that will spontaneously combust.

The statute grants EPA broad authority to regulate waste labeling, containment, transportation, and record-
keeping, and to establish a system for permitting TSDFs. Recognizing a need for stricter hazardous waste
controls, Congress enacted the Hazardous and Solid Waste Amendments (HSWA) in November 1984, which
significantly expanded the scope and requirements of RCRA. The goal of Subtitle C under RCRA as amended
is to assure appropriate management of hazardous wastes and requires use of a manifest system and "any other
reasonable means necessary" to assure that hazardous waste is designated for and arrives at RCRA-permitted
TSDFs.

There are three types of hazardous waste generators:

(1) large quantity generators (LQG) generate more than 1,000 kilograms of hazardous waste or 1 kilogram of
acutely hazardous waste per month;

(2) small quantity generators (SQG) produce between 100 and 1,000 kilograms of hazardous waste or less than
1 kilogram of acutely hazardous waste per month; and

(3) conditionally exempt small quantity generators (CESQG) generate less than 100 kilograms of hazardous
waste per month and are exempt from many RCRA requirements.

If LQGs and SQGs are not permitted to treat waste on-site, they must prepare a manifest and ensure that the
hazardous waste they generate is properly identified and transported to a permitted TSDF. RCRA also requires
generators, transporters, and TSDFs to notify EPA regarding their location, general hazardous waste activities,
and types of wastes handled.

RCRA Largely Delegated to States

Congress intended that states assume responsibility for implementing RCRA, with oversight from the federal
government. The rationale was that states are more familiar with the regulated community and in a better
position to administer the programs and respond to specific state and local needs most effectively. To be
authorized to administer a state program, a state must develop a hazardous waste program and have it approved
by EPA. The state program must be equivalent to and consistent with the federal program. However, a state
may impose requirements that are more stringent or broader in scope than the federal program. Currently four
states are not authorized for the RCRA base program -- Alaska, Hawaii, Iowa, and Wyoming. In these states the
RCRA program is implemented by the appropriate EPA region.

Manifest System is Critical Component of Hazardous Waste Management Under RCRA

The manifest system is one of the components of the Subtitle C base program. The hazardous waste manifest is
a control and transport document that accompanies the waste from its generation site to its treatment, storage,
and disposal site. Among other things, the manifest lists the wastes that are being shipped and the TSDF to
which the wastes are bound. The term "manifest system" refers to the overall set of requirements for the use of
the manifest. These requirements are intended to ensure that hazardous waste shipped to an off-site TSDF
actually reaches its destination.

Each time waste is transferred (e.g., from a transporter to a TSDF or from a transporter to another transporter),
the manifest must be signed to acknowledge receipt of the waste. A copy of the manifest is retained by each link
in the transportation chain. Once the waste is delivered to the designated facility, the owner or operator of that
facility must return the original manifest to the generator. There is no federal requirement for manifests to be
sent to EPA or the states for routine shipments. However, some states require that a copy of the manifest be sent
to the state for all shipments. Federal regulations require that EPA or the authorized state receive notification if
there is a significant discrepancy between the quantity or type of waste the generator identifies on the manifest
and the quantity or type received by the TSDF. Additionally, if a TSDF receives a shipment of hazardous waste
that is not accompanied by a manifest, the TSDF must report this to EPA or the authorized state. A generator
who does not receive the original copy of the manifest back from the TSDF within a specified time period must
investigate the reason for not receiving the original manifest and report this condition in an exception report to
EPA or the authorized state.

The only time that EPA is included in the manifest process on a regular basis is when hazardous wastes are
transported to foreign countries for treatment, storage, or disposal. Federal regulations require that a copy of the
manifest accompanying this waste must be left with U.S. Customs at the border. Customs then forwards a copy
to EPA. Presently, there is very little hazardous waste being sent to foreign countries from the United States.
For hazardous wastes that are imported into the United States, the exporter must send a notification to EPA. The
region where the receiving TSDF is located decides whether to allow the TSDF to receive the foreign waste.
Alternately, the TSDF that intends to receive foreign wastes may notify the Regional Administrator of the
region where the facility is located. The TSDF receiving foreign hazardous waste is responsible for properly
completing a manifest for the hazardous waste being imported.

                                        SCOPE AND METHODOLOGY

We conducted our audit work between September 6, 1994, and July 21, 1995. We reviewed RCRA
requirements on hazardous waste generators for identifying and documenting hazardous waste generated and on
EPA and states for issuing regulations and overseeing generators. We reviewed associated regulations in Title
40 of the Code of Federal Regulations (40 CFR) and Agency guidance relative to generators and the manifest
system. We examined current sources of hazardous waste data in BRS reports and RCRIS reports.

We interviewed officials concerning manifesting requirements and their responsibilities at EPA Headquarters,
OSWER and OECA, and Regions 3, 4, 6, and 7. In Region 7, we met with officials regarding the
implementation of selected aspects of the RCRA program by Region 7 in the unauthorized State of Iowa. We
also met with officials in the authorized states of Texas and Louisiana to discuss their procedures for
administering the manifest system. We examined guidance documents at each office and discussed the
implementation of the guidance. For three of the four regions and for both states we visited, we selected
samples of inspection reports prepared as a result of inspections of hazardous waste generator facilities. We did
not review manifesting of international shipments of hazardous waste.

We obtained the RCRIS report, National Oversight CM & E Strategic Targeted Activities for Results System
(STARS) for fiscal 1994. This report identifies the CEIs performed at hazardous waste handler facilities in that
year. A CEI is a routine inspection of hazardous waste generators, transporters, and TSDFs to evaluate
compliance with the requirements of RCRA. Using the RCRIS report, we selected statistical samples of
generator inspections performed in the locations we visited.

-- For Region 3, we randomly selected 60 inspection reports from all the states in the region. The universe of
generator CEIs in fiscal 1994 in Region 3 was 1,121.

-- For Region 4, we randomly selected 64 inspection reports from four of the eight states in the region. Those
states were Alabama, Florida, Mississippi, and Tennessee. The universe of generator CEIs in the four states in
fiscal 1994 was 1,195.

-- For Region 7, we randomly selected 33 inspection reports from the State of Iowa, an unauthorized state. The
universe of generator CEIs in fiscal 1994 in Iowa was 67.

-- For the State of Texas, we randomly selected 54 inspection reports. The universe of generator CEIs in fiscal
1994 in Texas was 367.
-- For the State of Louisiana, we randomly selected 41 inspection reports. The universe of generator CEIs in
fiscal 1994 in Louisiana was 116.

The total number of fiscal 1994 CEIs in the above locations was 2,866. Altogether, we obtained and reviewed a
total of 252 inspection reports. We evaluated these reports for the quality of the report. We based our evaluation
on guidance in the 1993 RCRA Inspection Manual. This manual provides guidance on the presentation of the
narrative portion of the inspection report and the elements that need to be included with a good narrative:

-- An explanation of the overall nature of a facility's activities;

-- A discussion of manufacturing and waste management operations at the facility;

-- A description of the generation and handling of wastes;

-- A description of apparent violations and discussion of the documentary evidence supporting a determination
that a facility has a violation.

We compared the narrative portion of the reports reviewed with the above criteria to assess the quality of the
narrative.

The manual also contains an example of the type of checklist that is recommended for use by EPA. The
checklist is inclusive of the type of information that a thorough review of the manifest system must have. We
evaluated the inspection reports for the presence or absence of a checklist and if a checklist was included with
the report, we compared its elements to the elements of the checklist indicated in the manual. We considered the
checklist to be adequate if it contained elements similar to those indicated in the manual. We excluded the four
states in Region 4 from our checklist analysis as we did not receive checklists with the inspection reports. (See
Appendix III, Tables 2 and 3 for a breakdown of results.)

We obtained additional RCRIS CM & E reports which contained inspection and violation histories for fiscal
years 1993 and 1994. We used these reports to determine the rate of repeat inspections performed in fiscal 1994
on facilities that were inspected and in compliance in both fiscal 1993 and fiscal 1994. We took a conservative
position and defined a compliant facility as one that had no Class 1 violations or fewer than three Class 2
violations. A Class 1 violation is defined in the Agency's Enforcement Response Policy as a deviation from
regulations which could result in a failure to:

(a) assure that hazardous waste is destined for and delivered to authorized TSDFs; or

(b) prevent releases of hazardous waste or constituents, both during the active and any applicable post-closure
periods of the facility operation where appropriate; or

(c) assure early detection of such releases; or

(d) perform emergency clean-up operation or other corrective action for releases.

A Class 2 violation is defined as any violation of a RCRA requirement that does not meet the criteria listed
above for Class 1 violations. We compared the results of facilities in compliance in fiscal 1994 with the
inspection results in fiscal 1993. If the facility had an inspection in fiscal 1994 and in fiscal 1993 and was in
compliance in both fiscal years 1993 and 1994, we identified the 1994 inspection as a repeat inspection. We
reviewed the statute, regulations and Agency guidance and excluded from our sample facilities falling under
statutory and Agency requirements to be inspected more often than every two years. We excluded federal
facilities from our samples due to the statutory requirement to inspect these facilities annually. We also
excluded state and locally owned TSDFs which are statutorily required to be inspected on an annual basis.

We considered Agency guidance for inspecting facilities, such as the Off-Site Policy for commercial facilities
that have the potential to receive Superfund waste and other guidance in the Agency's annual RIP. We focused
on the guidance in the RIP for fiscal 1994. The Agency has required any commercial TSDF that receives waste
from Superfund sites to have been inspected within six months of receiving such waste. We excluded
commercial facilities which receive off-site waste from our samples. We also reviewed the compliance histories
of facilities in the location that had the highest rate of repeat inspections. We found that the compliance
histories had no effect on the rate of repeat inspections at that location. In addition, for the location with the
highest rate of repeat inspections, we reviewed the approved fiscal 1994 workplan for activities to be conducted
pursuant to the Cooperative Agreement between EPA and the state. We did not find any indications in the
workplan that would explain the rate of repeat inspections in this location. (See Appendix III, Table 1 for a
breakdown of results.)

Our review of internal controls related to manifesting consisted primarily of a review of guidance on hazardous
waste facility inspections in the Agency's annual RCRA Implementation Plans. We reviewed this guidance to
determine whether there was a sufficient emphasis on generator inspections. Since the manifest system, as
implemented by EPA, is primarily self-policed by generators, EPA has not established internal controls over
this aspect of the RCRA program other than guidance on generator inspections.

We performed our audit in accordance with the Government Auditing Standards issued by the Comptroller
General of the United States (1994 Revision). No other significant issues came to our attention that warranted
expanding the scope of our audit.

No previous audits were performed on manifesting requirements under the RCRA program by the EPA Office
of the Inspector General (OIG). The General Accounting Office (GAO) issued an audit report in 1992,
Management of Maquiladoras' Waste Hampered by Lack of Information, GAO/RCED-92-102, which addressed
hazardous waste tracking and manifesting issues regarding hazardous waste returned to the United States by
U.S. companies producing goods in Mexico using U.S. raw materials. Another GAO report, Illegal Disposal of
Hazardous Waste: Difficult to Detect or Deter, GAO/RCED-85-2, addressed the use of the manifest system to
deter, but not detect, illegal disposal of hazardous waste.

APPENDIX III

Page 1 of 2

                                                    Table 1
                                      Compliance Evaluation Inspections
                                     Repeated in Fiscal 1994 on Generators
                                        Found in Compliance in 19931
                                                  Fiscal 1994

                                              Generator CEIs                            Fiscal 1994

        State or Region                   Total             Sample                 Percent Repeated2

Iowa                                67                36                 14%

Louisiana                           116               44                 25%

Missouri3                           177               156                3%
Nebraska3                           20                  17               18%

Texas                               367                 58               2%

Region 3                            1121                75               13%

Region 44                           1195                68               15%

1 These facilities were also found in compliance in fiscal 1994.

2 Generators which were also federal facilities, commercial or state TSDFs were excluded from analysis.

3 In Missouri and Nebraska we reviewed the populations of generators with CEIs in fiscal 1994 (excluding
federal facilities, state and local TSDFs, and commercial facilities receiving off-site waste).

4 Sample included four of the eight Region 4 states: Alabama, Florida, Mississippi, and Tennessee.

CEI - Compliance Evaluation Inspection

APPENDIX III

Page 2 of 2

                                                    Table 2
                             Review of Fiscal 1994 Generator CEI Report Narratives
                            Fiscal 1994 CEI Reports                  Report Narrative Percentages

  Region or State           Total              Sample         Adequate        Inadequate     Not Available1

Iowa                   67                33                  100%         0%               0%

Louisiana              116               41                  93%          7%               0%

Texas                  367               54                  70%          22%              7%

Region 3               1121              60                  32%          52%              17%

Region 4               1195              64                  77%          22%              2%

Totals                 2866              252                 60%2         33%2             8%

1 These narratives were not in the files. We could not determine whether or not they had been prepared.

2 Weighted by total fiscal 1994 CEIs in above locations.

CEI - Compliance Evaluation Inspection

Note: Rows may not add to 100% due to rounding.

                                                    Table 3
                             Review of Fiscal 1994 Generator CEI Report Checklists
                            Fiscal 1994 CEI Reports                   Report Checklist Percentages

  Region or State           Total           Sample             Adequate    Inadequate        Not Available1

Iowa                   67             33                  76%             0%               24%

Louisiana              116            41                  100%            0%               0%

Texas                  367            54                  98%             2%               0%

Region 3               1121           60                  47%             42%              12%

Totals                 1671           188                 63%2            29%2             9%

1 These checklists were not in the files. We could not determine whether or not they had been prepared. The use
of checklists is optional.

2 Weighted by total fiscal 1994 CEIs in the above locations.

CEI - Compliance Evaluation Inspection

Note: Region 4 was excluded from checklist analysis as we did not receive any checklists with the reports.
Rows may not add to 100% due to rounding.

                                        GLOSSARY OF ACRONYMS

BRS - Biennial Reporting System

BTU - British Thermal Units

CEI - Compliance Evaluation Inspection

CESQG - Conditionally Exempt Small Quantity Generator

CFR - Code of Federal Regulations

CM & E - Compliance Monitoring & Evaluation

DOT - Department of Transportation

EDI - Electronic Data Interchange

EPA - Environmental Protection Agency

GAO - General Accounting Office

GPRA - Government Performance and Results Act

IRS - Internal Revenue Service

LQG - Large Quantity Generator
MOA - Memorandum of Agreement

MSDS - Material Safety Data Sheet

NASR - National Association of Solvent Recyclers

OIG - Office of Inspector General

RCRA - Resource Conservation and Recovery Act

RCRIS - Resource Conservation and Recovery Information System

RIP - RCRA Implementation Plan

RIS - RCRA Implementation Study

SQG - Small Quantity Generator

STARS - Strategic Targeted Activities for Results System

TSDF - Treatment, Storage, and Disposal Facility

                                          REPORT DISTRIBUTION

Inspector General (2410)

Agency Followup Official (3101), Attn: Assistant Administrator for Administration and Resources
Management

Agency Followup Coordinator (3304), Attn: Director, Resource Management Division

Audit Coordinator, Region 3

Audit Coordinator, Region 4

Audit Coordinator, Region 6

Audit Coordinator, Region 7

Audit Coordinator, Office of Solid Waste and Emergency Response (5101)

Audit Coordinator, Office of Enforcement and Compliance Assurance (2201)

Texas Natural Resource Conservation Commission

Louisiana Department of Environmental Quality

State of Louisiana Legislative Auditors

Associate Administrator for Regional Operations and State/Local Relations (H-1501)
Regional Administrators, Regions 1 through 10

Director, Office of Solid Waste (5301)

Director, Characterization and Assessment Division (5304)

Acting Director, Chemical, Commercial Services, and Municipal Division (2224A)

Acting Director, RCRA Enforcement Division (2246A)



   •   Executive Summary
